CERTIFICATE OF WORD COUNT
No. TBD
James R. LaFrieda and Ellen A. LaFrieda,
Petitioner(s)
v.
Nancy A. Gilbert,
Respondent(s).

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the James R. LaFrieda and
Ellen A. LaFrieda Petition for Writ of Certiorari contains 8183 words, including the parts of
the brief that are required or exempted by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich

August 12, 2019
SCP Tracking: LaFrieda-5380 Napoleon Drive-Cover White

CERTIFICATE OF SERVICE
No. TBD
James R. LaFrieda and Ellen A. LaFrieda
Petitioner(s)
v.
Nancy A. Gilbert
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, T served the parties in the above captioned matter with the James
R. LaFrieda and Ellen A. LaFrieda Petition for Writ of Certiorari, by mailing three (3) true
and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Douglas R. Brown
Lemons, Grundy & Eisenberg
6005 Plumas Street, Suite 300
Reno, NV 89519
(775) 786-6868
drb@lge.net
Counsel for Nancy A. Gilbert

Dan Abramovich
August 12, 2019
SCP Tracking: LaFrieda-5380 Napoleon Drive-Cover White

'■*'7

